                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A04070049                                                                       Page 1 of 2



     In June 2004, our office received several allegations involving management and financial issues
     at an institution's' center.* The complainant3 alleged the following: (1) the principal
     investigator4 (subject A) was paid under the NSF grant5 while she was performing work related
     to another government agency;6 (2) program income is an issue because a major source of
     income for the center is generated by the sale of research-oriented supplies;' (3) the center
     managers (subject B) frequently mailed supply orders without using proper documentation; and
     (4) the center manager instructed employees to charge 20 hours of work even if they worked'
     fewer hours.

     Our office contacted the complainant via electronic mail for further explanations of her
     allegations. The complainant provided additional details, but no supporting documentation.

    We requested financial records from the institution. We reviewed the general ledger, program
    income reports, and the award jacket. We could not find any evidence to support allegations
    related to the principal investigator's (PI) work performance or the center manager's actions.
    However, we identified two research-oriented supplies generating income at the center. We
    determined, and the institution agreed, one of the supplies is generating program income. We
    believe a portion of the income generated by the second supply to be program income.

    As a part of closing this matter, we will notify both the program officer9 and the grants ~ f f i c e r ' ~
    of the two sets of income. The institution has Agreed the program income generated by the first
    supply should be used to offset costs associated with the grant. However, we believe it best that
    management make a determination regarding the second income stream and whether any of the
    income should be used to offset the grant.

     In conclusion, we classified program income" generated by the first research-oriented supply as
     funds put to better use; therefore, those funds should offset grant expenses. We will inform the
                                              NATIONAL
                                               OFFICE OF SCIENCE
                                                         INSPECTOR
                                                                 FOUNDATION
                                                                   GENERAL


q$$@.
 4
  0
     &N o
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A04070049                                                                 Page 2 of 2



       program officer and the grants officer of our opinion regarding the income1*generated by the
       second research-oriented supply. We will ask them to determine if the income generated by the
       second supply is program income. Accordingly, this case is closed.




       -
